APPENDIX TABLE OF CONTENTS
Opinion and Orders
Opinion of the United States Court of Appeals for
the Fifth Circuit (October 1, 2019)................... la
Final Judgment of the United States District
Court Eastern District of Texas Sherman
Division (April 24, 2018)...........................

3a

Memorandum Adopting Reports and
Recommendations of United States
Magistrate Judge Amos L. Mazzant
(April 24, 2018).................................

7a

Reports and Recommendations of United States
Magistrate Judge Christine A. Nowak
(March 16, 2018)............................................. 10a
Memorandum Adopting Reports and
Recommendations of United States
Magistrate Judge Amos L. Mazzant
(July 29, 2016)..................................

18a

Reports and Recommendations of United States
Magistrate Judge Christine A. Nowak
(June 15, 2016)................................................ 31a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
(OCTOBER 1, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
WAYNE A. POWE; REGINA Y. POWE,
Plaintiffs-Appellants,
v.
DEUTSCHE BANK NATIONAL TRUST
COMPANY, as Trustee for Residential
Asset Securitization Trust Series
2004-A7 Mortgage Pass-Through
Certificates 2004-G,
Defendan t-Appellee.
No. 18-41070
Summary Calendar
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:15-CV-661
Before: HIGGINBOTHAM, HO,
and ENGELHARDT, Circuit Judges.

App.2a
PER CURIAM:*
AFFIRMED. See 5th Cir. R. 47.6.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH ClR. R. 47.5.4.

App.3a
FINAL JUDGMENT OF THE UNITED STATES
DISTRICT COURT EASTERN DISTRICT OF
TEXAS SHERMAN DIVISION
(APRIL 24, 2018)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF TEXAS SHERMAN DIVISION
WAYNE A. POWE, ET AL.
v.
DEUTSCHE BANK NATIONAL TRUST CO.,
as Trustee for Residential Asset
Securitization Trust Series 2004-A7
Mortgage Pass Through
Certificates 2004-G.
Civil Action No. 4:15-CV-661
Before: Amos L. MAZZANT,
United States District Judge.
FINAL JUDGMENT
The Court previously granted Defendant’s Motion
for Summary Judgment (Dkt. #78), leaving only Defen­
dant’s entitlement to attorneys’ fees for the Court’s
consideration. The Court’s adoption of the Magistrate
Judge’s Report and Recommendation on Defendant’s
Motion for Award of Attorneys’ Fees, on this same
date, disposes of all remaining claims and issues in
this case; and as such, the Court can now proceed in

App.4a
entering the instant Final Judgment. Therefore, pur­
suant to the Memorandum Adopting, it is hereby
ORDERED, ADJUDGED AND DECREED that
plaintiff/counter-defendants Wayne A. Powe and Regina
Y. Powe take nothing on their claims against Deutsche
Bank in this cause. It is further,
ORDERED, ADJUDGED AND DECREED that
an event of default has occurred on that certain Note
executed on or about June 21, 2004 by Wayne A.
Powe and payable to SMI Financial Servicers, L.L.C.
(hereinafter “Note”). It is further,
ORDERED, ADJUDGED AND DECREED that
that certain Texas Home Equity Security Instrument
dated June 22, 2004, signed by Wayne A. Powe and
Regina Y. Powe, as nonobligor spouse to perfect the
lien only, and recorded as document number 20040098354 in the real property records of Collin County,
Texas (hereafter “Security Instrument”), provides Deut­
sche Bank, as the mortgagee of the Security Instru­
ment, in the event of a default on the obligations on
the Note, with a first lien security interest on that
certain real property commonly known as 291 Oakwood
Trail, Fairview, Texas 75069 and more particularly
known as:
Lot 2r, In Block A of Oakwood Estates,
Phase I, Amended Plat Of Lots 2, 3, 4 and
5, Block A, An Addition to the Town of
Fairview, Collin County, Texas According
to the Plat Thereof Recorded in Volume
J, Page 34 of the Map Records of Collin
County, Texas.
It is further,

App.5a

ORDERED, ADJUDGED AND DECREED that
Deutsche Bank is the current legal owner and holder
of the Note and mortgagee of the Security Instru­
ment pursuant to a series of assignments recorded as
document numbers 20080415000444060, 200909160011
57800 and 20110107000034380 in the official public
records of Collin County, Texas. It is further,
ORDERED, ADJUDGED AND DECREED that
the following are secured by the Security Instrument
on the Property: the outstanding balance of the Note,
which was at least $1,034,006.83 as of May 10, 2017
plus all contractual interest, escrow advances, fees,
costs and other items in the Loan Agreement that are
recoverable and have accrued since that date;
prejudgment interest; post-judgment interest; and
costs of court. It is further,
ORDERED, ADJUDGED AND DECREED that
due to event of default on the Note, Deutsche Bank,
or its successors or assigns, may enforce its Security
Instrument against the Property through non-judicial
foreclosure of the Property as provided in the Security
Instrument and section 51.002 of the Texas Property
Code. It is further,
ORDERED, ADJUDGED AND DECREED that
all foreclosure notices shall be mailed to Wayne A. Powe
and Regina Y. Powe at 291 Oakwood Trail, Fairview,
Texas 75069. It is further,
ORDERED, ADJUDGED AND DECREED that
all costs are to be taxed against Wayne A. Powe and
Regina Y. Powe. It is further,
ORDERED, ADJUDGED AND DECREED that
Defendant’s Motion for Award of Attorneys’ Fees is
GRANTED; Deutsche Bank shall have and recover

App.6a

its attorneys’ fees in the amount of $16,330.00 from
Plaintiffs/Counter-Defendants Wayne A. Powe and
Regina Y. Powe. This award exists solely as a further
obligation owed by Plaintiffs/Counter-Defendants
Wayne A. Powe and Regina Y. Powe under the Note
and Security Instrument recorded as document number
2004-0098354 in the official public records of Collin
County, Texas, and not as an award of money
damages. It is further,
ORDERED, ADJUDGED, AND DECREED that
any relief not specifically granted in this Judgment is
DENIED and any parties not otherwise disposed of
are DISMISSED.
IT IS SO ORDERED
SIGNED this 24th day of April.
/s/ Amos L. Mazzant
United States District Judge

App.7a
MEMORANDUM ADOPTING REPORTS AND
RECOMMENDATIONS OF UNITED STATES
MAGISTRATE JUDGE AMOS L. MAZZANT
(APRIL 24, 2018)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF TEXAS SHERMAN DIVISION
WAYNE A. POWE, ET AL.
v.
DEUTSCHE BANK NATIONAL TRUST CO.,
as Trustee for Residential Asset
Securitization Trust Series 2004-A7
Mortgage Pass Through
Certificates 2004-G.
Civil Action No. 4:15-CV-661
(Judge Mazzant/Judge Nowak)
Before: Amos L. MAZZANT,
United States District Judge.
Came on for consideration the reports of the United
States Magistrate Judge in this action, this matter
having been heretofore referred to the Magistrate
Judge pursuant to 28 U.S.C. § 636. On March 16, 2018,
the reports of the Magistrate Judge (Dkts. #89, #90)
were entered containing proposed findings of fact and
recommendations that Defendant Deutsche Bank’s
Motion for Award of Attorneys’ Fees (Dkt. #81) be
granted and Plaintiffs’ “Emergency Motion to Set Aside
Foreclosure Sale and for Temporary Restraining Order

App.8a
and Preliminary Injunction and for an Expedited
Hearing on or Submission of Motion” (Dkt. #83) be
denied as moot.
Subsequent to the issuance of the reports, Plain­
tiff filed two additional Emergency Motions: “Emer­
gency Motion for Temporary Restraining Order and
Preliminary Injunction and for an Expedited Hearing
on or Submission of Motion, Motion to Suspend the
Enforcement of the October 24, 2017 Order and to
Set Amount of Supersedeas Bond” (Dkt. #91) and
“First Amended Emergency Motion for Temporary
Restraining Order and Preliminary Injunction and
for an Expedited Hearing on or Submission of Motion,
Motion to Suspend Enforcement of the October 24,
2017 Order and to Set Amount of Supersedeas Bond”
(collectively, the “Emergency Motions”) (Dkt. #94).
On April 20, 2018, at Hearing before the Magistrate
Judge, Plaintiffs withdrew both Emergency Motions
(Dkt. #97). As such, pending before the Court are
only the aforementioned Reports and Recommendations
(Dkts. #89, #90).
Having received the reports of the Magistrate
Judge, and no objections thereto having been timely
filed, the Court is of the opinion that the findings and
conclusions of the Magistrate Judge are correct and
adopts the Magistrate Judge’s reports as the findings
and conclusions of the Court.
It is, therefore, ORDERED that Plaintiffs’ “Emer­
gency Motion to Set Aside Foreclosure Sale and for
Temporary Restraining Order and Preliminary Injunc­
tion and for an Expedited Hearing on or Submission
of Motion” (Dkt. #83) is DENIED AS MOOT.

App.9a
It is further ORDERED that Defendant Deutsche
Bank’s Motion for Award of Attorneys’ Fees (Dkt.
#81) is GRANTED, and Deutsche Bank shall have
and recover its attorneys’ fees in the amount of $16,
330.00 from Plaintiffs/Counter-Defendants Wayne A.
Powe and Regina Y. Powe. This award exists solely as
a further obligation owed by Plaintiffs/Counter-Defend­
ants Wayne A. Powe and Regina Y. Powe under the
Note and Security Instrument recorded as document
number 2004-0098354 in the official public records of
Collin County, Texas, and not as an award of money
damages.
The Court previously granted Defendant’s Motion
for Summary Judgment (Dkt. #78), and ordered Defend­
ant to proceed in filing any briefing on the remaining
issue of Defendant’s entitlement to attorney’s fees.
The Court’s adoption of the Magistrate Judge’s Report
and Recommendation on Defendant’s Motion for Award
of Attorneys’ Fees herein disposes of all remaining
claims and issues in this case. A final judgment
closing this civil action is therefore entered contem­
poraneously herewith.
IT IS SO ORDERED.
SIGNED this 24th day of April.
/s/ Amos L. Mazzant
United States District Judge

App.lOa
REPORTS AND RECOMMENDATIONS OF
UNITED STATES MAGISTRATE JUDGE
(MARCH 16, 2018)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF TEXAS SHERMAN DIVISION
WAYNE A. POWE; REGINA Y. POWE,
Plaintiff/CounterDefendants,
v.
DEUTSCHE BANK NATIONAL TRUST
COMPANY, as Trustee for Residential Asset
Securitization Trust Series 2004-A7
Mortgage Pass Through
Certificates 2004-G,
Defen dan t/Co un terPlaintiff.
Civil Action No. 4:15-CV-00661-ALM-CAN
Before: Christine A. NOWAK,
United States Magistrate Judge.
Pending before the Court is Defendant Deutsche
Bank’s Motion for Award of Attorneys’ Fees [Dkt. 81].
After reviewing Defendant’s Motion for Attorneys’
Fees, Plaintiffs Wayne A. Powe and Regina Y. Powe’s
Opposition to Defendant’s Motion for Attorneys’ Fees
[Dkt. 82], and all other relevant pleadings, the Court

App.lla
recommends that Defendant’s Motion for Attorneys’
Fees be GRANTED.

Background
Plaintiffs Wayne A. Powe and Regina Y. Powe
(“Plaintiffs”) initiated the instant action in state court
on July 31, 2015, by filing “Plaintiffs’ Original Petition”
in the 401st District Court, Collin County, Texas, Cause
No. 401-03028-2015 (“State Court Action”) [Dkt. 1 at
l]. Plaintiffs’ Petition/Complaint sought a declaratory
judgment voiding Defendant’s lien on the property
located at 291 Oakwood Trail, Fairview, Texas 75069
(the “Property”) [Dkt. 4; Dkt. 9]. On August 28, 2015,
Defendant timely removed the State Court Action to
this Court [Dkt. l]. On October 1, 2015, Defendant filed
its Original Counterclaim [Dkt. 6] seeking judicial
foreclosure, or in the alternative, equitable
subrogation. On July 29, 2016, the Court dismissed
Plaintiffs’ claims with prejudice [Dkt. 24], Defendant
moved for summary judgment on May 12, 2017 [Dkt.
43]. The Magistrate Judge entered a report and re­
commendation on July 7, 2017, recommending that
the Court grant Defendant’s Motion for Summary
Judgment [Dkt. 61]. On October 24, 2017, the Court
adopted the Magistrate Judge’s recommendation,
granted Defendant’s Motion for Summary Judgment,
and ordered Defendant to file “any briefing on the
issue of Defendant’s entitlement to attorney’s fees
under the Note and Security Instrument” [Dkt. 78].
On November 8, 2017, Defendant filed the present
Motion for Attorneys’ Fees [Dkt. 81], requesting
$16,330.00 in attorneys’ fees. On December 14, 2017,
Plaintiffs filed their “Opposition to Defendant's]
Motion for Attorney’s Fees” [Dkt. 82].

App.l2a

Analysis
Defendant moves for attorney fees pursuant to
the “Note, Security Instrument, and Federal Rule of
Civil Procedure 54(d)(2)” [Dkt. 81 at 2]. Section 9 of
the Deed of Trust states as follows:
Protection of Lender’s Interest in the Property
and Rights Under this Security Instrument.
If (a) Borrower fails to perform the covenants
and agreements contained in this Security
Instrument, (b) there is a legal proceeding
that might significantly affect Lender’s inter­
est in the Property and/or rights under this
Security Instrument. ... or (c) Borrower has
abandoned the Property, then Lender may
do and pay for whatever is reasonable or
appropriate to protect Lender’s interest in
the Property and rights under this Security
Instrument. . . Lender’s actions can include,
but are not limited to (a) paying any sums
secured by a lien which has priority over
this Security Instrument; (b) appearing in
court; and (c) paying reasonable attorneys’
fees to protect its interest in the Property
and/or rights under this Security Instrument.
[Dkt. 43 at 30-31]. The Fifth Circuit has held that lan­
guage in a deed of trust nearly identical to that in
the instant Deed of Trust entitled the lender to rea­
sonable attorney’s fees when the Deed of Trust
contemplates entitlement to attorney’s fees incurred
to protect the lender’s interest in the property or
rights under the Deed of Trust. NSEWHoldings LLC
v. Wells Fargo Bank, N.A., No. 4:15-CV-828, 2017 WL
1030313, at *5 (E.D. Tex. Mar. 17, 2017) (Mazzant, J.)

App.l3a
(citing In re Velazquez, 660 F.3d 893, 899 (5th Cir.
2011); see also King v. Wells Fargo Bank, N.A., No.
3-11-CV-0945-M-BD, 2012 WL 3283473, at *1 (N.D.
Tex. July 10, 2012), report and recommendation
adopted, No. 3-11-CV-0945-M-BD, 2012 WL 3289961
(N.D. Tex. Aug. 13, 2012), affd, 533 F. App’x 431 (5th
Cir. 2013)). There is no dispute here that the instant
case is a legal proceeding that had the potential to
significantly affect Defendant’s rights to the Property.
Further, Plaintiffs do not challenge Defendant’s asser­
tion that it expended attorneys’ fees in protecting its
rights. Accordingly, Defendant is entitled to reason­
able attorneys’ fees.
In determining the amount of a reasonable attor­
ney fee, the court employs a two-step process. “First,
the court determines the lodestar, which is the rea­
sonable number of hours expended on a case
multiplied by the reasonable hourly rates for the
litigating attorneys. It is a [movant’s] burden to show
the reasonableness of the hours billed and to prove he
exercised billing judgment. Billing judgment requires
documentation of the hours charged and of the hours
written off as unproductive, excessive, or redundant.”
Whatley, 2014 WL 1287131, at *1-2.
Once the Court calculates the “lodestar” fee, the
lodestar may be adjusted upward or downward depend­
ing on the twelve (12) factors set forth in Johnson v.
Georgia Highway Express, Inc., 488 F.2d 714 (5th
Cir. 1974). These factors are: (l) the time and labor
required for the case; (2) the novelty and difficulty of
the issues involved; (3) the skill required to litigate
the case; (4) the ability of the attorney to accept
other work; (5) the customary fee for similar work in
the community; (6) whether the fee is fixed or

App.l4a
contingent; (7) time limitations imposed by the client
or the circumstances of the case; (8) the amount
involved and the results obtained; (9) the experience,
reputation, and ability of the attorney; (10) the
“undesirability of the case; (ll) the nature and
length of the attorney-client relationship; and (12)
awards in similar cases. Johnson, 488 F.2d at 717-19;
see also Shipes v. Trinity Indus., 987 F.2d 311, 31920 (5th Cir.), cert, denied, 510 U.S. 991 (1993).
Defendant seeks $16,330.00 in attorneys’ fees [Dkt.
81 at 2]. Defendant is represented by Mark D. Cronenwett of Mackie Wolf Zientz & Mann, PC CMWZM”).
Mr. Cronenwett has been licensed in the state of Texas
for the past twenty-five years [Dkt. 81-2], Throughout
his years of experience, Mr. Cronenwett has specialized
in the area of consumer law, “primarily mortgage­
lending litigation” [Dkt. 81-2]. Additionally, Mr. Cronen­
wett declared that the other legal professionals who
assisted him in this matter were “at all relevant
times attorneys licensed by the State of Texas, in
good standing and experienced in the areas of busi­
ness, real estate, and commercial litigation practice”
[Dkt. 81-1 at 3].
In this case, Mr. Cronenwett charged $230 for
each hour of work he performed until June 9, 2017
when he lowered his hourly rate to $215.00; Senior
Attorney Lindsay Stansberry charged $215.00 for
each hour expended; Associate Daniel Van Syke
charged $215.00 for each hour expended; Associate
Dustin George charged $190.00 for each hour expended
until May 9, 2017, when his hourly rate was raised to
$215.00; Paralegals Brandie Hanna, Rathikane
Schmidt, Susan Taplin, and Brittany Parker charged
$95.00 for each hour expended [Dkt. 81-3]. Mr. Cronen-

App.l5a
wett averred that these are reasonable amounts given
the nature of the claims and each professional’s expe­
rience, and were reasonable and customary with
other fees charged in the Eastern District of Texas
[Dkt. 81-1 at 2].
Mr. Cronenwett submitted MWZM’s billing
invoices to establish the number of hours expended in
this matter [Dkt. 81-3]. The invoices show that MWZM
performed legal work to prosecute Defendant’s counterc­
laims and protect Defendant’s interest in the Proper­
ty [Dkt. 81-3]. MWZM charged Defendant for the
following hours expended by the aforementioned attor­
neys and paralegals: Cronenwett-3.2; Stansberry-1.10;
Van Syke—0.3; George—69.7; Hanna-1; Schmidt—0.6;
Taplin-0.9; Parker—10.6 [Dkt. 81-3]. Plaintiffs have
not contested any of the hours expended by MWZM.
‘Where counsel requests compensation at his normal
billing rate and that rate is shown to be within the
range of market rates for attorneys of similar skill
and experience, the burden is on the opposing party
to show that a lower rate should be used.” United
States v. Cornerstone Wealth Corp., Inc., No. 3-98CV-0601-D, 2006 WL 1524592 at *2 (N.D. Tex. June
2, 2006), citing Islamic Ctr. of Miss., Inc. v. City of
Starkville, 876 F.2d 465, 469 (5th Cir. 1989); see also
Watkins, 7 F.3d at 459 (court must articulate reasons
for rejecting normal billing rate); KeyCorp v. Holland,
No. 3:16-CV-1948-D, 2017 WL 606617, at *7 (N.D. Tex.
Feb. 15, 2017) (“Further, if a party does not object to
particular billing entries as inadequately documented,
the court is not obligated sua sponte to sift through
fee records searching for vague entries or block billing.
It is a common practice for courts to address only

App.l6a
those potentially inadequate entries brought to the
court’s attention.”).
The Court has independently reviewed the billing
invoices and has found no duplicative, excessive, or
otherwise improper hours billed therein. Further, the
Court concludes that the requested hourly rates
charged by MWZM are reasonable and within the
market rate for attorneys handling this type of litiga­
tion in the Dallas area. See Ocwen Loan Servicing,
LLC v. Deane, No. 4:15-CV-00682-0-BP, 2017 WL
6816499, at *5 (N.D. Tex. Dec. 1, 2017), report and
recommendation adopted, No. 4:15-CV-00682-0-BP,
2018 WL 309105 (N.D. Tex. Jan. 5, 2018); Vanliner
Ins. Co. v. DerMargosian, No. 3:12-cv—5074-D, 2014
WL 1632181, at *2 (N.D. Tex. Apr. 24, 2014) (noting
that the Court is an expert on the reasonableness of
attorneys’ fees).
The Court, upon review of the evidence and after
giving due consideration to the relevant Johnson
factors, Mr. Cronenwett’s declaration, and MWZM’s
invoices, concludes that $16,330.00 is a reasonable and
appropriate attorney’s fee in this case. This award,
as requested by Defendant, exists solely as a further
obligation by Plaintiffs under the Note and Security
Instrument, and not as an award of money damages.

Conclusion and Recommendation
For the foregoing reasons, the Court recommends
that Defendant’s Motion for Attorneys’ Fees be GRANT­
ED [Dkt. 81], in the amount of $16,330.00, and that
such award be recovered from Plaintiffs solely as a
further obligation owed by them under the Note and
Security Instrument.

App.l7a

Within fourteen (14) days after service of the
magistrate judge’s report, any party must serve and
file specific written objections to the findings and re­
commendations of the magistrate judge. 28 U.S.C.
§ 636(b)(1)(C). In order to be specific, an objection must
identify the specific finding or recommendation to
which objection is made, state the basis for the objec­
tion, and specify the place in the magistrate judge’s
report and recommendation where the disputed deter­
mination is found. An objection that merely
incorporates by reference or refers to the briefing
before the magistrate judge is not specific.
Failure to file specific, written objections will
bar the party from appealing the unobjected-to factual
findings and legal conclusions of the magistrate judge
that are accepted by the district court, except upon
grounds of plain error, provided that the party has
been served with notice that such consequences will
result from a failure to object. See Douglass v. United
Services Automobile Ass’n, 79 F.3d 1415, 1417 (5th
Cir. 1996) (en banc), superseded by statute on other
grounds, 28 U.S.C. § 636(b)(1) (extending the time to
file objections from ten to fourteen days).
SIGNED this 16th day of March, 2018.
/s/ Christine A. Nowak
United States District Judge

App.l8a
MEMORANDUM ADOPTING REPORTS AND
RECOMMENDATIONS OF UNITED STATES
MAGISTRATE JUDGE AMOS L. MAZZANT
(JULY 29, 2016)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF TEXAS SHERMAN DIVISION
WAYNE A. POWE; REGINA Y. POWE,
v.
DEUTSCHE BANK NATIONAL TRUST CO.,
as Trustee for Residential Asset
Securitization Trust Series 2004-A7
Mortgage Pass Through
Certificates 2004-G.
Civil Action No. 4:15-CV-661
(Judge Mazzant/Judge Nowak)
Before: Amos L. MAZZANT,
United States District Judge.
Came on for consideration the report of the United
States Magistrate Judge in this action, this matter
having been heretofore referred to the Magistrate
Judge pursuant to 28 U.S.C. § 636. On June 15, 2016,
the report of the Magistrate Judge (Dkt. #21) was
entered containing proposed findings of fact and re­
commendations that Defendant Deutsche Bank Natio­
nal Trust Company’s (“Defendant”) Motion to Dismiss
(Dkt. #11) be granted. Having received the report of
the Magistrate Judge (Dkt. #21), having considered

App.l9a
Plaintiffs Wayne A. Powe and Regina Y Powe’s (“Plain­
tiffs”) timely filed objections (Dkt. #22), Defendant’s
response to Plaintiffs’ objections (Dkt. #23), and having
conducted a de novo review, the Court is of the opinion
that the findings and conclusions of the Magistrate
Judge are correct.

Background
Plaintiffs originally commenced this action on July
31, 2015, in the 401st District Court, Collin County,
Texas, Cause No. 401-03028-2015 (“State Court
Action”) against Defendant (Dkt. #1 at l).l The
claims in Plaintiffs’ Petition relate to the servicing
and foreclosure proceedings of Plaintiffs’ loan secured
by the residence, located at 291 Oakwood Trail, Fairview, Texas 75069 (“Property”). Id. at 1-2. On August
28, 2015, the case was removed to the Eastern Dis­
trict of Texas (Dkt. #1). Thereafter, Plaintiffs filed an
Amended Complaint alleging claims for: (l) Viola­
tions of the Pooling and Servicing Agreement (“PSA”);
(2) Truth In Lending Act (“TILA”) violations; (3)
Quiet Title; (4) Unjust Enrichment; (5) Declaratory
Judgment (requesting that the lien on the Property
be declared invalid); and (6) Procedural Deficiencies
1 Prior to initiation of the current lawsuit in Texas state court,
Defendant filed a Rule 736 Proceeding for foreclosure on the
Property (“Rule 736 Proceeding”) (Dkt. #10-4 at l). In Re: Order for
Foreclosure Concerning 291 Oakwood Trail Fairview, TX 75069
Under Tex.R.Civ.Proc. 736 Petitioner Deutsche Bank National
Trust Company as Trustee for Residential Asset Securitization
Trust Series 2004-A 7Mortgage Pass-Through Certificates Series
2004-G Respondents) vs. Wayne A Powe and Regina Y Powe,
No. 401-02037-2015 (401st Dist. Ct., Collin County, Tex. August 12,
2015). The Rule 736 Proceeding was later dismissed without
prejudice by Defendant’s Notice of Non-Suit. (Dkt. #20, Ex. l). Id.

App.20a
in the Rule 736 Proceeding (Dkt. #9). On November
20, 2015, Defendant filed a Motion to Dismiss under
12(b)(6) (Dkt. #ll) requesting that each of Plaintiffs’
claims be dismissed. On February 5, 2016, Plaintiffs
filed a Response (Dkt. #15). The Magistrate Judge
entered a report and recommendation on June 15,
2016, recommending Defendant’s Motion to Dismiss
be granted (Dkt. #21 at 17). On June 29, 2016, Plain­
tiffs timely filed objections to the Magistrate Judge’s
report (Dkt. #22). On July 11, 2016, Defendant filed
a response to Plaintiffs’ objections (Dkt. #23).

Plaintiffs’ Objections
Under the law, a party who files timely written
objections to a magistrate judge’s report and recom­
mendation is entitled to a de novo determination of
those findings or recommendations to which the party
specifically objects. 28 U.S.C. § 636(b)(1)(c); Fed. R. Civ.
P. 72(b)(2)-(3). Plaintiffs assert two objections herein:
(l) the Magistrate Judge incorrectly found Plaintiffs
cannot challenge the purported assignment from Indy­
Mac Bank, F.S.B. to OneWest Bank, F.S.B.; and (2)
the Magistrate Judge incorrectly found limitations
barred Plaintiffs’ claims (Dkt. #22).
Plaintiffs’ objections, as stated, effect and/or
impact only two of the findings and conclusions of
the Magistrate Judge {see Dkts. #21-22). The Magis­
trate Judge’s report specifically recommended that:
(l) Plaintiffs’ claims for violations of the PSA and
TILA be dismissed because Plaintiffs have not
objected to dismissal of these claims (Dkt.
#15 at 8-9, 11; Dkt. #21 at 5-6);

App.21a

(2) Plaintiffs’ claims based on the invalidity of
the chain of assignments, including specific­
ally the invalidity of the IndyMac Bank/OneWest Assignment and the OneWest/Defendant Assignment, be dismissed for lack of
standing to challenge the Assignments on
grounds that merely render the Assignments
voidable (Dkt. #21 at 6-ll);
(3) Plaintiffs’ claim for unjust enrichment/resti­
tution be dismissed because it is barred by the
statute of limitations (Dkt. #21 at 11-12);
(4) Plaintiffs’ claims based on the Rule 736 Pro­
ceeding be dismissed as moot (Dkt. #21 at 1314);
(5) Plaintiffs’ claim for quiet title be dismissed
because Plaintiffs fail to state a claim under
Federal Rule of Civil Procedure 12(b)(6) (Dkt.
#21 at 14-15);
(6) Plaintiffs’ claim for unjust enrichment/resti­
tution be dismissed for failure to state a claim
under Federal Rule of Civil Procedure 12(b)(6)
(Dkt. #21 at 15-16).
Plaintiffs do not object to the findings of the Magistrate
Judge: (i) that Plaintiffs’ claims for violations of the
PSA and TILA; (ii) Plaintiffs’ claims based on the Rule
736 Proceeding; and (iii) Plaintiffs’ claim for quiet
title, should be dismissed (see Dkt. #22). Nor do
Plaintiffs object to the Magistrate Judge’s finding
that Plaintiffs’ claim for unjust enrichment/restitution
should be dismissed under Rule 12(b)(6). Id.
As such, the Court holds that these findings and
conclusions of the Magistrate Judge are correct and

App.22a

will be adopted as the findings and conclusions of the
Court. Accordingly, Plaintiffs’ claims: (i) for violations
of the PSA and TILA; (ii) based on the Rule 736
Proceeding; (iii) for quiet title; and (iv) for unjust
enrichment/restitution are dismissed. The Court now
addresses each of Plaintiffs’ objections in turn.
Objection 1: Plaintiffs’ Claim Based on the Purported
Assignment of the Note from IndyMac
Bank, F.S.B. to One West Bank, F.S.B.,
which was a Void and InvalidAssignment.
Plaintiffs’ first objection contends that the Mag­
istrate Judge improperly found that Plaintiffs’ claims
based on the IndyMac Bank/OneWest Assignment
should be dismissed because Plaintiffs lack standing
to assert such claims (Dkt. #22 at 1-3). Specifically,
Plaintiffs assert that: (l) the Magistrate Judge
improperly relied on the bulk asset transfer by the
FDIC, rather than the individual assignment at issue,
to reach this result; and (2) the Magistrate Judge
misstated the holding and/or effect of the reversal of
Burke cited in support of Plaintiffs’ arguments. Id.
The Magistrate Judge, in reliance on binding Fifth
Circuit precedent Reinagel v. Deutsche Bank National
Trust Company., 735 F.3d 220, 224—28 (5th Cir. 2013),
found that Plaintiffs, as non-signatories, lacked stand­
ing to challenge the IndyMac Bank/OneWest Assign­
ment because Plaintiffs’ challenges to the assignment
merely rendered it voidable, not void (Dkt. #21 at 6-11).
In Reinagel, the Fifth Circuit found that a non-signa­
tory to a contract (including an assignment such as
here) may only challenge the contract on grounds
that render the contract void; the non-signatory lacks
standing to assert any grounds which merely renders
it voidable, such as lack of authority of an individual

App.23a
to sign the contract on behalf of a company. Reinagel,
735 F.3d at 224—28; see also Casterline v. OneWest
Bank, F.S.B., No. CAC-12-150, 2012 WL 5465982,
at *3-5 (S.D. Tex. Oct. 10, 2012) (finding that plain­
tiffs lacked standing to challenge an assignment from
IndyMac Bank to Deutsche National Trust Company
because plaintiffs challenged the assignment only on
grounds that rendered the assignment voidable, not
void).
Here, Plaintiffs challenge the validity of the assign­
ment of the deed of trust from IndyMac Bank to
OneWest on September 10, 2009, which was executed
by Erica A. Johnson-Seck, attorney-in-fact for Indy
Mac Bank and its successors and/or assigns (Dkt. #9
at 6, 13-15; Dkt. #15 at 4-8, Ex. C). Plaintiffs argue
that because IndyMac Bank was defunct and/or had
been shut down at the time the IndyMac Bank/One
West Assignment was executed, it was void. Id. Plain­
tiffs’ sole authority for this proposition was Burke,
wherein the Court found an assignment void because
it was signed by a purportedly “dead” party (Dkt. #15
at 4-8). See Deutsche Bank Natl Trust Co. v. Burke,
92 F. Supp. 3d 601, 602 (S.D. Tex. 2015), vacated and
remanded sub nom. DEUTSCHE BANK NATIONAL TRUST
COMPANY, as Tr. of the Residential Asset Securitization
Trust 2007-A8, Mortgage Pass-Through Certificates,
Series 2007-H under the Pooling & Servicing
Agreement dated June 1, 2007, Plaintiff-Appellant v.
Joanna Burke; John Burke, Defendants-Appellees,
No. 15-20201, 2016 WL 3209223 (5th Cir. June 9, 2016)
(“Fifth Circuit Opinion”). The Burke Court reasoned,
in part, that IndyMac Bank had been closed by the
Office of Thrift Supervision and did not exist on the
date the assignment was executed or its effective

App.24a

date. Id. The Magistrate Judge correctly noted that
Burke has been vacated and reversed in full by the
Fifth Circuit (Dkt. #21 at 10-11). See Fifth Circuit
Opinion, 2016 WL 3209223, at *3. While the Fifth
Circuit Opinion did not specifically address the argu­
ment Plaintiffs assert herein, that fact is irrelevant
as the underlying opinion was entirely vacated and
has no precedential value (Dkt. #21 at 10-11). Fifth
Circuit Opinion, 2016 WL 3209223, at *3; see Asgeirsson v. Abbott, 696 F.3d 454, 459 (5th Cir. 2012)
(stating that the Fifth Circuit has consistently held
that a vacated decision has no precedential value).
Moreover, Plaintiffs’ objection focusing on the
alleged inapplicability of the bulk asset sale to OneWest
through the receivership—omits and ignores the
discussion in the report and recommendation that
the IndyMac Bank/OneWest Assignment, at issue
here, includes the language “successors and assigns”
(Dkt. #22 at 1-3). Plaintiffs have clearly admitted in
their underlying pleadings, and now again in their
objections, that the IndyMac Bank/OneWest Assign­
ment was executed by “IndyMac Bank, F.S.B. and its
successors and/or assigns” and further that the FDIC,
a successor in interest and “live” entity, had authority,
as receiver, to transfer the assets of IndyMac Bank
(Dkt. #15 at 4-7; see alsoUkt. #9 at 3-6, 11-12, 14; Dkt.
#22 at 1-2). In Casterline, considered by the Magis­
trate Judge, the assignment at issue similarly stated,
“IndyMac, its successors and assigns” and the court
found such language necessarily included the FDIC
and OneWest Bank, the successors and/or assigns of
IndyMac Bank. Casterline, 2012 WL 5465982, at *35. Casterline reasoned that even if IndyMac Bank
was defunct on the date of assignment, an individual

App.25a
authorized to sign the assignment on behalf of a
successor or assign of IndyMac Bank could properly
execute an assignment.2 Id. Thus, Plaintiffs’ focus on
the reference to a bulk asset sale (alleging no such
asset sale applies here), ignores that Casterline also
found that IndyMac Bank was in receivership and an
attorney-in-fact for a successor in interest and/or
assignee of IndyMac Bank (such as the FDIC or
IndyMac Federal, F.S.B.) could still validly execute
an assignment (seeDkt. #15, Ex. C). Casterline, 2012
WL 5465982, at *3-5. Such is the case here; the Indy
Mac Bank/OneWest Assignment includes the lan­
guage “IndyMac Bank, F.S.B. and its successors and/or
assigns” (Dkt. #15, Ex. C). Similarly, it was signed by
an attorney-in-fact acting for “IndyMac Bank, F.S.B.
and its successors and/or assigns.” Id. Accordingly,
Plaintiffs’ challenge, while couched or framed in
terms of a defunct or dead entity, is merely a chal­
lenge to the authority of the signor of the IndyMac
Bank/OneWest Assignment who executed it at that
time. See Casterline, 2012 WL 5465982, at *3-5. A
challenge to the authority of the signor, such as
Plaintiffs’ challenge here, is clearly recognized under
Reinagel as a ground a non-signatory has no stand­
ing to assert, because the ground merely renders the
Assignment voidable, not void. 735 F.3d at 224-28.
Plaintiffs, as non-signatories, therefore lack standing
to challenge the IndyMac Bank/OneWest Assignment
on such ground, and any claims relying thereupon,
including but not limited to Plaintiffs’ claims for
2 The court in Casterline was also not persuaded that IndyMac
Bank was “dead” or defunct on the date of the assignment, noting
that the public records reflected IndyMac Bank was in receiver­
ship and/or conservatorship at that time. Id.

App.26a

declaratory judgment, must be dismissed. Plaintiffs’
first objection is overruled.
Objection 2: Limitations
Plaintiffs also object to the finding by the Magis­
trate Judge that Plaintiffs’ unjust enrichment/resti­
tution claim is barred by limitations (Dkt. #21 at 1112; Dkt. #22 at 3). Notably, Plaintiffs do not object to
the Magistrate Judge’s finding that Plaintiffs failed
to state a claim for unjust enrichment/restitution
under Federal Rule of Civil Procedure 12(b)(6) (see
Dkt. #21 at 11-12; Dkt. #22 at 3). Again, the Magistrate
Judge found that Plaintiffs’ unjust enrichment/resti­
tution claim failed to state a claim upon which relief
can be granted because the Parties had a contract (Dkt.
#21 at 11-12). Plaintiffs have not objected to such
finding; therefore, even if the unjust enrichment
/restitution claim was not barred by limitations, such
claim must still be dismissed (Dkts. #21-22). Accord­
ingly, no matter the result or disposition of Plaintiffs’
objections regarding limitations, Plaintiffs’ unjust
enrichment/restitution claim is properly dismissed.
Nevertheless, the Court reviews the objection.
Plaintiffs do not dispute that Plaintiffs’ unjust enrich­
ment/restitution claim is subject to Texas’s two year
statute of limitations (Dkts. #21-22). Elledge v. FribergCooper Water Supply Corp., 240 S.W.3d 869, 869
(Tex. 2007); Tex. Civ. Prac. & Rem. Code §§ 16.003,
16.051. Rather, Plaintiffs assert that the latest date
of injury for the unjust enrichment/restitution claim
was July 2015, bringing such claim within the limi­
tations period (Dkt. #22 at 3-4). Plaintiffs specifically
assert in their objections that the date of injury for
Plaintiffs’ claim was July 2015, when the Rule 736

App.27a
Proceeding was filed in Texas state court; and that
the Magistrate Judge erred in citing or relying on
January 7, 2011. Id.
Plaintiffs allege, by way of their unjust enrich­
ment/restitution claim, that because Defendant was
allegedly not the legal owner of the note/deed of
trust, Plaintiffs are entitled to repayment of any and all
payments made to Defendant (who as a non-owner
would not be entitled to such payments) since June
2004 under the note/deed of trust (Dkt. #9 at 16).
Plaintiffs argue limitations for this claim should be
measured from July 2015 (Dkt. #22 at 3-4). As a
general proposition, a cause of action accrues when a
wrongful act causes a legal injury, even if the fact of
injury is not discovered until later, and even if all
resulting damages have not yet occurred. See Trinity
River Auth. v. URS Consultants, Inc., 889 S.W.2d 259,
262 (Tex. 1994); see also Sw. Energy Prod. Co. v. BerryHelfand, No. 13-0986, 2016 WL 3212999, at *15 (Tex.
June 10, 2016). Different claims asserted in the same
lawsuit may have different injury and accrual dates
for purposes of the statute of limitations. See e.g.
Smith Int’l, Inc. v. Egle Grp., LLC, 490 F.3d 380, 387
(5th Cir. 2007) (finding breach of contract, negligent
misrepresentation, and indemnification had different
accrual/injury dates for purposes of limitations).
Again, Plaintiffs’ unjust enrichment/restitution
claim seeks recoupment in the form of monetary
damages for alleged payments made by Plaintiffs to
Defendant when Defendant was not the lawful owner
of the note and/or deed of trust on the Property (Dkt.
#9 at 16). Plaintiffs have not alleged anywhere in the
Amended Complaint or otherwise, the dates on which
they made payments (the alleged “injury” for purposes

App.28a
of the unjust enrichment/restitution claim) or the dates
on which any payments were accepted by Defendant
(see generally Dkt. #9). And the Magistrate Judge noted
the latest date referenced in the Amended Complaint
in connection with any wrongdoing by Defendant is
January 7, 2011 (Dkt. #21 at 6-11; see generally Dkt.
#9). Id. Notwithstanding, Plaintiffs attempt to argue
that “Defendant’s wrongdoing occurred when it filed
the state court action” in July 2015.
A party cannot circumvent the statute of limit­
ations merely by referencing a later injury date
applicable to a completely different claim, where such
date has no discernable connection with the claim at
issue. See Smith Int’l, Inc., 490 F.3d at 387 (finding
accrual date for breach of contract and negligent mis­
representation, which accrued when breach occurred,
was different than the accrual date for the indem­
nification claim, which accrued when plaintiff became
liable to pay a judgment, even though all claims arose
from the same underlying contract and relationship
between the parties); see also Mitchell v. Crescent River
Port Pilots Ass’n, 515 F. Supp. 2d 666, 677 (E.D. La.
2007), affd, 265 F. App’x 363 (5th Cir. 2008) (finding
claims based on alleged discrimination in the yearly
state appointee selection process for multiple years
were independent, discrete injuries and claims, with
some, but not all claims limitations barred). To find
otherwise would render limitations a nullity.
Plaintiffs’ Amended Complaint alleges numerous
claims (Dkt. #9). The only claim Plaintiffs assert
based on the filing of the Rule 736 Proceeding is the
declaratory judgment action seeking to declare the
Rule 736 Order void. Id. at 11-13. Plaintiffs’ claim for
unjust enrichment/restitution based on payments

App.29a
made by Plaintiffs to Defendant is independent of
that claim (Dkt. #9 at 15-16). See Mitchell, 515 F.
Supp. 2d at 677 (finding claims based on alleged dis­
crimination related to the selection process for a
state appointment were discrete and independent
injuries, with some, but not all claims barred by the
statute of limitations); Edwards v. Galveston-Texas
City Pilots, 203 F. Supp. 2d 759, 767 (S.D. Tex. 2002)
(explaining plaintiff alleged two discrete injuries, one
in 1999 that was limitations barred and one in 2000
that was not); see also Smith Int% Inc., 490 F.3d at
387-88 (finding accrual date for party’s breach of con­
tract and negligent representation claims was different
than accrual date for the indemnification claims).
Plaintiffs’ filing of this lawsuit stayed the Rule 736
Order; that Order has been vacated and the Rule 736
Proceeding non-suited (Dkt. #20). Tex. R. Civ. P.
736.11. Any claims based on the filing of the Rule
736 Proceeding are therefore moot, and the last
identifiable allegation of wrongdoing in Plaintiffs’
Amended Complaint remains the recording of the
OneWest/Defendant Assignment in January 2011 (Dkt.
#9 at 17). Medcalfv. Ocwen Loan ServicingLLC, No.
A-14-CA-096-SS, 2014 WL 2722325, at *3 (W.D. Tex.
June 16, 2014) (stating that claims brought under
rule 736 proceeding for foreclosure were moot because
Rule 736.11 obligates the state court to vacate the
order of foreclosure when a lawsuit challenging the
foreclosure is filed). Plaintiffs thus have not pleaded
an injury for which they seek unjust enrichment/resti­
tution within the relevant two-year time period, and
Plaintiffs’ unjust enrichment/restitution claim is thus
limitations barred. Elledge, 240 S.W.3d at 869; Tex.
Civ. Prac. & rem. Code § 16.003. Accordingly, Plaintiffs’

App.30a

unjust enrichment/restitution claim is barred by lim­
itations, and Plaintiffs’ second objection is overruled.

Conclusion
Having received the report of the United States
Magistrate Judge, having considered Plaintiffs’ timely
filed objection (Dkt. #22), Defendant’s response (Dkt.
#23), and having conducted a de novo review, the
Court is of the opinion that the findings and conclu­
sions of the Magistrate Judge are correct and adopts
the Magistrate Judge’s report (Dkt. #21) as the find­
ings and conclusions of the Court.
It is, therefore, ORDERED that Defendant’s
Motion to Dismiss (Dkt. #ll) is GRANTED, and Plain­
tiffs claims are DISMISSED with prejudice.
IT IS SO ORDERED.
/s/ Amos L, Mazzant
United States District Judge

App.31a
REPORTS AND RECOMMENDATIONS OF
UNITED STATES MAGISTRATE JUDGE
CHRISTINE A. NOWAK
(JUNE 15, 2016)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF TEXAS SHERMAN DIVISION
WAYNE A. POWE; REGINA Y. POWE,
Plaintiff,
v.
DEUTSCHE BANK NATIONAL TRUST
COMPANY, as Trustee for Residential Asset
Securitization Trust Series 2004-A7
Mortgage Pass Through
Certificates 2004-G.,
Defendant.
Civil Action No. 4:15-CV-00661-ALM
Before: Christine A. NOWAK,
United States Magistrate Judge.
Pending before the Court is Defendant Deutsche
Bank National Trust Company’s (“Defendant”) Motion
to Dismiss [Dkt. 11]. After reviewing the Motion [Dkt.
11], Response [Dkt. 15] and all other relevant filings,
including Defendant’s brief regarding the foreclosure
order [Dkt. 20], the Court recommends that Defend­
ant’s Motion to Dismiss be GRANTED.

App.32a

Background
Plaintiffs Wayne A. Powe and Regina Y. Powe
(“Plaintiffs”) commenced the instant action in state
court on July 31, 2015, by filing “Plaintiffs’ Original
Petition” in the 401st District Court, Collin County,
Texas, Cause No. 401-03028-2015 (“State Court Action”)
[Dkt. 1 at l]. The allegations in Plaintiffs’ Petition in
the State Court Action generally relate to the servicing
and foreclosure proceedings of Plaintiffs’ loan secured
by the residence, located at 291 Oakwood Trail, Fairview, Texas 75069 (“Property). Id. at 1-2.
On August 28, 2015, Defendant filed its Notice of
Removal, removing the State Court Action to this
Court [Dkt. l]. Upon removal, Defendant also asserted
Counterclaims against Plaintiffs [Dkt. 6]. On October
28, 2015, Plaintiffs filed a Motion to Remand [Dkt.
8], which was denied by the Court on February 5,
2016 [Dkts. 13; 17]. On October 30, 2015, Plaintiffs
filed an Amended Complaint (“Plaintiffs’ Amended
Complaint”) [Dkt. 9]. Plaintiffs’ Amended Complaint
alleges, among other things, that the order obtained
in the prior expedited foreclosure proceeding is void
and seeks a declaration that Defendant’s lien is
invalid. Id.l Plaintiff also seeks cancellation of the
1 Prior to initiation of the State Court Action, Defendant filed
suit in Collin County seeking a home equity foreclosure order
under Texas Rule of Civil Procedure 736, Cause No. 401-020372015 (“Rule 736 Proceeding”) [Dkt. 10-4 at l]. In Re: Order for
Foreclosure Concerning 291 Oakwood Trail Fairview, TX 75069
Under Tex. R. Civ. Proc. 736 Petitioner: Deutsche Bank National
Trust Company as Trustee for Residential Asset Securitization
Trust Series 2004-A 7Mortgage Pass-Through Certificates Series
2004-G Respondents) vs. Wayne A Powe and Regina YPowe,
No. 401-02037-2015 (401st Dist. Ct., Collin County, Tex. August
12, 2015) (hereinafter “Collin County 736 Proceeding”). Plain-

App.33a
lien and brings claims for unjust enrichment, Truth
in Lending Act, 15 U.S.C. § 1641 (“TILA”) violations,
and quiet title. Id. In support of Plaintiffs’ claims,
Plaintiffs state that they took out a loan with SMI
Financial Services (“SMI”) secured by a deed of trust
(“Deed of Trust”) dated June 22, 2004 [Dkts. 9 at 3; 15,
Ex. A at 16, 25]. SMI, through its nominee, Mortgage
Electronic Registration Systems, Inc. (“MERS”)
assigned the Deed of Trust to IndyMac Bank, F.S.B.
(“IndyMac Bank”) by assignment dated March 28,
2008 (“SMI/IndyMac Bank Assignment”) [Dkts. 9 at
3-4; 15, Ex. B]. IndyMac Bank assigned the Deed of
Trust to OneWest Bank, F.S.B. (“OneWest”) via
assignment dated September 10, 2009 (“IndyMac
Bank/OneWest Assignment”) on a date Plaintiffs
allege IndyMac Bank was defunct and did not exist
[Dkt. 9 at 11; 15, Ex. C].2 OneWest assigned the
tiffs timely answered in the Rule 736 Proceeding, but on July 9,
2015, the state court entered a final Home Equity Foreclosure
Order (“Foreclosure Order”) [Dkt. 8 at 1-2]. Collin County 736
Proceeding. In an effort to stop enforcement of the Foreclosure
Order, Plaintiffs filed a separate suit—the State Court Action
[Dkt. 10-4 at 2; 8 at 2]. On August 10, 2015, Plaintiffs filed a
motion to vacate in the Rule 736 Proceeding, which the Court
granted on August 12, 2015 and stayed the Rule 736 Proceeding
[Dkt. 11 at Ex. A-l], On June 1, 2016, the Defendants filed a
Notice of Non-Suit requesting that the Rule 736 Proceeding be
dismissed without prejudice [Dkt. 20, Ex. l], Collin County 736
Proceeding.
2 The details of IndyMac Bank’s sale of assets to IndyMac Fed­
eral, F.S.B. and OneWest are well known in the Fifth Circuit
and the Court will not repeat them. See e.g. Casterline v.
OneWest Bank, F.S.B., No. CAC-12-150, 2012 WL 5465982, at
*3-5(S.D. Tex. Oct. 10, 2012) (describing the history of IndyMac
Bank). The Court herein takes judicial notice of the history
stated in Casterline. Id.

App.34a
Deed of Trust to Defendant via assignment dated
December 27, 2010, and effective as of October 25,
2010, signed by Steven Delgado (“OneWest/Defendant
Assignment) [Dkt. 9 at 11; 15, Ex. D].3 On November
20, 2015, Defendant filed a Motion to Dismiss under
12(b)(6) [Dkt. ll] alleging that “all of Plaintiffs’
claims must be dismissed” under Rule 12(b)(6). On Feb­
ruary 5, 2016, Plaintiffs filed a Response [Dkt. 15].

Legal Standard
Defendant moves to dismiss based on Federal Rule
of Civil Procedure 12(b)(6) [Dkt. ll]. A Rule 12(b)(6)
motion to dismiss argues that, irrespective of juris­
diction, Plaintiffs’ Amended Complaint fails to assert
facts that give rise to legal liability of Defendant. The
Federal Rules of Civil Procedure require that each
claim in a complaint include “a short and plain state­
ment ... showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). The claims must include enough
factual allegations “to raise a right to relief above the
speculative level.” Twombly, 550 U.S. at 555. Thus,
“Wo survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Twombly, 550 U.S. at 570). The Court must accept as
true all well-pleaded facts contained in Plaintiffs’
Amended Complaint and view them in the light most
favorable to Plaintiffs. Baker v. Putnal, 75 F.3d 190,
3 The Court will collectively refer to the SMI/IndyMac Assign­
ment, IndyMac/OneWest Assignment, and OneWest/Defendant
Assignment as the “Assignments.” The recording dates for the
Deed of Trust and three Assignments are July 2, 2004, April 15,
2008, September 16, 2009, and January 7, 2011 respectively.

App.35a

196 (5th Cir. 1996). In deciding a Rule 12(b)(6) motion,
“[f] actual allegations must be enough to raise a right
to relief above the speculative level.” Twombly, 550
U.S. at 555; Gonzalez v. Kay, 577 F.3d 600, 603 (5th
Cir. 2009). The Supreme Court has further expounded
upon the Twombly standard, “explaining that ‘[t]o
survive a motion to dismiss, a complaint must con­
tain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.’”
Gonzalez, 577 F.3d at 603 (quoting Iqbal, 556 U.S. at
678). “A claim has facial plausibility when the plain­
tiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. “It follows, that
‘where the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct,
the complaint has alleged-but it has not ‘shown’‘that the pleader is entitled to relief.’” Id.
In Iqbal, the Supreme Court established a twostep approach for assessing the sufficiency of a com­
plaint in the context of a Rule 12(b)(6) motion. First,
the Court identifies conclusory allegations and pro­
ceeds to disregard them, for they are “not entitled to
the assumption of truth.” Iqbal, 556 U.S. at 681.
Second, the Court “consider[s] the factual allegations
in [the complaint] to determine if they plausibly
suggest an entitlement to relief.” Id. “This standard
‘simply calls for enough facts to raise a reasonable
expectation that discovery will reveal evidence of the
necessary claims or elements.” Morgan v. Hubert,
335 F. App’x 466, 470 (5th Cir. 2009). This evaluation
will “be a context-specific task that requires the
reviewing court to draw on its judicial experience
and common sense.” Iqbal, 556 U.S. at 679.

App.36a
In determining whether to grant a motion to
dismiss, a district court may generally not “go outside
the complaint.” Scanlan v. Tex. A&M Univ., 343 F.3d
533, 536 (5th Cir. 2003). However, a district court
may consider documents attached to a motion to
dismiss and the response thereto if they are referred
to in the plaintiffs complaint and are central to the
plaintiffs claim. Scanlan, 343 F.3d at 536; Bradley v.
PNC Bank, N.A., No. 4:14-CV37, 2014 WL 4829317,
at *3 n. 3 (E.D. Tex. Sept. 26, 2014) (considering note
and assignment attached to Motion to Dismiss);
Martinez v. Wells Fargo Bank, N.A., No. SA-15-CV390-XR, 2015 WL 4041674, at *2 (W.D. Tex. June 30,
2015) (finding court could consider note and deed of
trust because they were public records and central to
plaintiffs claims). Here, the Parties attached copies
of the Deed of Trust and Assignments, as well as a
copy of the Rule 736 Proceeding order vacating the
Foreclosure Order [Dkts. 11; 15, Exs. A-D]. Because
Plaintiffs’ Amended Complaint expressly references
the Deed of Trust and Assignments by name, and
such documents, including the validity or invalidity
thereof, are central to Plaintiffs’ claims (discussed
infra.), the Court considers them herein [see e.g. Dkt.
9 at 3-4, 6, 9, 11, 12, 14-15, 18]. Additionally, the Court
may take judicial notice of the Rule 736 Proceeding,
which is also expressly referenced in Plaintiffs’
Amended Complaint [Dkt. 9 at 2, 12-13]. Fed. R. Evid.
201; Norris v. Hearst Trust, 500 F.3d 454, 461 n.9
(5th Cir. 2007) (“it is clearly proper in deciding a 12(b)
(6) motion to take judicial notice of matters of public
record”); Bradley, 2014 WL 4829317, at *3 (considering
note and assignment and declining to convert motion
to dismiss to motion for summary judgment).

App.37a
Analysis
I.

Plaintiffs’ Claims for Violation of the PSA and
Violation of THA

The Court notes at the outset that Plaintiffs do
not object to dismissal and have sought to withdraw
their claims for alleged violations of the pooling and
servicing agreement (“PSA”) and TILA (15 U.S.C.
§ 1641) [Dkt. 9 at 17-18; 15 at 8-9, 11]. See e.g.
Reinagel v. Deutsche Bank Nat. Trust Co., 735 F.3d
220, 224—25 (5th Cir. 2013) (finding that courts in
the Fifth Circuit have rejected the argument that
violations of the PSA renders an assignment of a
deed of trust or note invalid); 15 U.S.C. § 1640(e)
(TILA allegations barred by applicable statute of lim­
itations). As such, the Court recommends dismissal
of Plaintiffs’ claims for violation of the PSA (and any
claims based on allegations of violation of the PSA)
and TILA.
II. Plaintiffs’ Remaining Claims
Defendant argues that each of Plaintiffs’ remain­
ing claims should also be dismissed because Plain­
tiffs (i) lack standing to challenge the Assignments;
(ii) any remaining claims are barred by the
applicable statute of limitations; (iii) the Rule 736
Proceeding challenges are moot; and (iv) Plaintiffs
have failed to state a claim for quiet title or unjust
enrichment/restitution [Dkt. 11].
i. Plaintiffs Lack Standing to Complain
Defendant alleges that each of Plaintiffs’ claims,
other than Plaintiffs’ withdrawn TILA claim, is subject
to dismissal because they rely on Plaintiffs’ allegation

App.38a
that the PSA was not complied with and/or the
invalidity of the Assignments [Dkt. ll]. With respect
to the Assignments, specifically, Plaintiffs’ Amended
Complaint alleges that the Assignments are invalid,
and thus Defendant lacks authority to foreclose
because: (l) the Note was not assigned with the Deed
of Trust; (2) Steven Delgado’s signature for OneWest
on the OneWest/Defendant Assignment is invalid;
and (3) the IndyMac Bank/OneWest Assignment was
invalid because IndyMac Bank did not exist at the
time of the IndyMac Bank/OneWest Assignment [Dkt.
9 at 11, 14],
Plaintiffs’ arguments that the transfer of the Note
without the Deed of Trust renders Plaintiffs’ lien
invalid, or deprives Defendant of the ability to fore­
close, have been soundly rejected by both Texas state
courts and the Fifth Circuit. See Martins v. BAC
Home Loans Servicing, L.P., 722 F.3d 249, 256 (5th
Cir. 2013) (holding that neither the show-me-thenote nor the split-the-note theory apply under Texas
law); Preston v. Seterus, Inc., 931 F. Supp. 2d 743, 756GO (N.D. Tex. 2013) (stating that Texas has rejected
the show-me-the-note and split-the-note theories).4
4 Plaintiffs allege that “SMI never sold the plainiff s [sic] “note”
to Deutsche Bank, and that Deutsche Bank is merely a thirdparty stranger to the loan transaction. Furthermore, Plaintiff
alleges that Defendant cannot demonstrate or document that
Plaintiffs Note was ever properly endorsed, and timely delivered
to Defendant Deutsche Bank” [Dkt. 9 at 9], The Court
interprets this claim to allege that, because Defendant is not in
possession of Plaintiffs’ Note and the Deed of Trust and/or
cannot produce the Note for inspection by Plaintiffs, Defendant
cannot foreclose; Courts in this Circuit have referred to these
types of claims colloquially as “show-me-the-note” or “split-thenote” claims and have repeatedly rejected them. Martins, 722

App.39a

Moreover, Plaintiffs—who are non-signatories—
generally lack standing to assert claims attacking
the Assignments or that are based on allegations
that the Assignments are invalid. 5 The Fifth Circuit
precedent is clear regarding standing to challenge an
assignment. A non-signatory to an assignment does
not have standing to challenge the validity of an
assignment contract. Reinagel, 735 F.3d at 224-28. A
limited exception exists allowing a mortgagor to chal­
lenge an assignment “on any ground that renders the
assignment void.” Id. A homeowner’s challenges to the
authority of the person who executed the assignment,
a challenge to the authenticity of the signature on the
assignment, and a challenge to the assignment on
the basis that it was contrary to the terms of a PSA,
are all grounds that make an assignment voidable, but
not void. Id.; see also Gonzales v. Bank of America,
N.A., 574 Fed.Appx. 441, 444 (5th Cir. 2014) (finding
claim that assignment may have violated the PSA
made the assignment voidable, not void). While an
F.3d at 256 (defining show-me-the-note and split-the-note theories);
Preston, 931 F. Supp. 2d at 756-60 (referring to claims that
Defendant holds the security instrument but not the Note as
show-me-the-note and split-the-note claims).
5 Plaintiffs’ assert in their Response that Defendant did not add­
ress “the claim in paragraph 28 that Defendant received insur­
ance payouts and funds from credit default swaps that resulted
in Plaintiffs’ loan being paid in full from these funds” [Dkt. 15
at 9], To the extent that Plaintiffs’ arguments in paragraph 28
of Plaintiffs’ Amended Complaint constitute a “claim,” the claim
is based on a third-party contract, Defendant does not seek
payment of the note herein, and Plaintiffs’ Amended Complaint
does not allege sufficient facts to make this “claim” identifiable
or plausible [Dkts. 9 at 8; 11; 15 at 9]. Reinagel, 735 F.3d at 22425; Iqbal, 556 U.S. at 678 (stating claims must be facially
“plausible” to survive a Rule 12(b)(6) motion to dismiss).

App.40a

unexplained gap in the chain of title may make subse­
quent assignments void. Leavings v. Mills, 175 S.W.3d
301, 309 (Tex. App. 2004).
Here, Plaintiffs allege that Steven Delgado’s signa­
ture was not authorized because a power of attorney
had expired [Dkt. 9 at 11]. This challenge to the
string of Assignments necessarily fails because lack
of authority to sign would make the OneWest/Defendant Assignment merely voidable, not void. Reinagel,
735 F.3d at 224-25.
Similarly without merit is Plaintiffs’ allegation
that IndyMac Bank did not exist at the time of the
IndyMac Bank/OneWest Assignment rendering the
IndyMac/OneWest Assignment void [Dkt. 9 at 14]. As
other Fifth Circuit Courts have recognized, IndyMac
Bank’s affairs were wound down through a compli­
cated FDIC receivership/conservatorship and sale of the
bank’s assets to OneWest during 2008 through 2010.
Casterline v. OneWest Bank, F.S.B., No. CAC—12—150,
2012 WL 5465982, at *3-5 (S.D. Tex. Oct. 10, 2012);
Lamell v. OneWest Bank, FSB, 485 S.W.3d 53, 55,
59-62 (Tex. App. 2015), reh’g overruled (Feb. 2, 2016),
(noting that IndyMac receivership/conservatorship
proceeding, if the court took judicial notice of it
“would not change the outcome [dismissal of claims]
of this appeal”); See RECEIVERSHIP, Black’s Law Dic­
tionary (10th ed. 2014). See e.g. Tex. Bus. Orgs. Code
Ann. §§ 11.001-11.102 (West) (providing that dissolu­
tion or closing of a business does not automatically
terminate the business, the business must be formally
terminated through the statutory process and its affairs
wound down). In Casterline, the Court considered a
similar challenge to the validity of certain assign­
ments from IndyMac Bank to OneWest. Casterline,

App.41a

2012 WL 5465982, at *3-5. The Court, after reviewing
the history of the IndyMac Bank receivership/conserva­
torship, found that defendant OneWest was the owner
of the note and had standing to enforce it. Id. The
Court reasoned therein that the language “IndyMac,
its successors and assigns” necessarily included the
FDIC, who stepped into IndyMac Bank’s shoes as
receiver, IndyMac Federal, F.S.B., and OneWest. Id.
Further, the Court stated that the FDIC website un­
equivocally reflects the sale of all of IndyMac Bank’s
assets through IndyMac Federal, F.S.B. and the
IndyMac Bank receivership to OneWest, and plaintiffs
had not shown that any other entity claims owner­
ship of the note or seeks to enforce it. Id.
Here, the IndyMac Bank/OneWest Assignment
also states “IndyMac Bank, F.S.B., its successors and
assigns, and therefore implicitly incorporates IndyMac
Federal, F.S.B., the FDIC, and OneWest as the success­
ors and/or assigns of IndyMac Bank [Dkts. 9 at 11;
15, Ex. C], Casterline, 2012 WL 5465982, at *3-5.
Further, Plaintiffs’ have not shown any disputed own­
ership of the Deed of Trust, or that the chain of
Assignments reflect anything but the highly publicized
receivership, assignments, and eventual sale of
IndyMac Bank’s assets and loans to OneWest Bank
by the FDIC as receiver [Dkts. 9 at 11; 15, Ex. C].
Casterline, 2012 WL 5465982, at *3-5. The Plaintiffs
allegations, construed in the light most favorable to
them, reflect the same or similar circumstances as
those presented in Casterline, an unbroken chain of
assignments leading through the FDIC’s receivership
of IndyMac, and onward to OneWest (and subsequent
assignees) as owners of Plaintiffs’ Deed of Trust.
[Dkts. 9; 15]. Thus, as in Casterline, Plaintiffs do not

App.42a
state a facially plausible claim as a non-signatory to
the assignments that the IndyMac Bank/OneWest
Assignment is void. Iqbal, 556 U.S. at 678; See
Casterline, 2012 WL 5465982, at *3-5 (rejecting mul­
tiple arguments that IndyMac’s receivership/conser­
vatorship made subsequent assignments void, invalid,
or made the chain of title unclear); see also Valdez v.
Fed. Home Loan Mortgage Corp., No. 3:11-CV-1363,
2011 WL 7068386, at *2-3 (N.D. Tex. Nov. 28, 2011)
(finding non-signatory to an assignment lacks stand­
ing to contest it, including based on assignment by
MERS as a nominee for a party and separation of the
note from the deed of trust); Adams v. Bank of
America, et. al., 2011 WL 5080217, *4-5 (E.D. Tex.
Oct. 26, 2011) (explaining that non-signatory to assign­
ments lacks standing to contest assignments, and
even if party did have standing, party’s arguments
that MERS facilitation of assignments renders assign­
ments invalid necessarily fails). Lamell, 485 S.W.3d
at 55, 59-62 (upholding chain of assignments, servicing,
and securitization of a deed of trust involving IndyMac
Bank, including servicing and/or assignment by
IndyMac Bank to OneWest and CSMC Trust, noting
that the IndyMac Bank receivership/conservatorship
proceedings “would not change the outcome of this
appeal”); O’Dell v. Deutsche Bank Nat. Trust Co.,
No. l:12-CV-985 JCC/IDD, 2013 WL 2389874, at *1015 (E.D. Va. May 30, 2013) (discussing the IndyMac’s
receivership and the securitization of deeds of trust
in detail and rejecting multiple borrower arguments
that the chain of assignments and successor trustees
during the 2006 to 2011 timeframe involving IndyMac,
the FDIC, and OneWest were invalid, and granting
summary judgment for banks on all claims); Murdock
v. E. Coast Mortgage Corp., No. Civ .A. 10-4717, 2011

App.43a
WL 3611394, at *2-3, 6-7 (D.N.J. Aug. 17, 2011)
(noting complex IndyMac conservatorship/receiver­
ship proceedings, finding there was a valid chain of
assignments involving IndyMac and OneWest includ­
ing a sale of plaintiffs mortgage to OneWest in
March 2009, and dismissing plaintiffs Federal Debt
Collection Practices Act claims based on the alleged
defective assignments); Krakauer v. Indymac Mortgage
Servs., No. Civ. 09-00518 ACK, 2013 WL 704861, *1-4
(D. Haw. Feb. 26, 2013) (finding assignment from
IndyMac to OneWest recorded on July 6, 2010 was
valid and noting history of IndyMac receivership/
conservatorship, which did not invalidate the assign­
ment).
Further, Deutsche Bank Nat’l Trust Co. v. Burke,
92 F. Supp. 3d 601, 605 (S.D. Tex. 2015), cited by Plain­
tiffs in their Response to the Motion to Dismiss as
the sole authority supporting their right to attack the
Assignments, was recently reversed and remanded by
the Fifth Circuit. DEUTSCHE Bank NATIONAL TRUST
COMPANY, as Tr. of the Residential Asset Securitization
Trust 2007-A8, Mortgage Pass-Through Certificates,
Series 2007-H under the Pooling & Servicing
Agreement dated June 1, 2007, Plaintiff-Appellant v.
Joanna Burke; John Burke, Defendants-Appellees,
No. 15-20201, 2016 WL 3209223, at *1-3 (5th Cir. June
9, 2016) (reversing judgement of district court finding
IndyMac Bank to OneWest assignment void). Accord­
ingly, Plaintiffs’ attacks on the Assignments relying
upon and/or based on the allegation that the IndyMac/
OneWest Assignment is void (and not merely voidable)
must be dismissed. As such, the Court recommends
dismissal of Plaintiffs’ claims attacking and/or relying
on the invalidity of the Assignments.

App.44a
ii. Statute of Limitations
Defendant further asserts each of Plaintiffs’
claims (other than Plaintiffs’ claim for quiet title) are
also barred by the applicable statute of limitations
because any alleged wrongdoing took place over four
years ago [Dkt. 11 at 5-6].6 Plaintiffs assert their claims
cannot be time barred because Plaintiffs’ “claims” are
in the nature of defenses, and, therefore are not sub­
ject to a statute of limitations [Dkt. 15 at 9-11].
Defenses generally are not subject to a statute of lim­
itations, although claims that seek affirmative relief
are. Gutowsky v. Deutsche Bank Nat. Trust Co., No.
Civ .A. H-14-00839, 2014 WL 2696630, at *5 (S.D. Tex.
June 11, 2014) (citing Hennigan v. Heights Sav. Ass’n,
576 S.W.2d 126, 130 (Tex.Civ.App.-Houston 1978,
reh’g denied.) and Sigaran v. U.S., N.A., No. 13—20367,
2014 WL 1688345, at *4 (5th Cir. Apr. 30, 2014). The
Court agrees that many of Plaintiffs’ claims are, by
their very nature, defenses to the foreclosure pro­
ceeding. Gutowsky, 2014 WL 2696630, at *5. Indeed,
Plaintiffs’ claims regarding the invalidity of the Assign­
ments (subject to dismissal for other reasons) are, by
their terms, an assertion that Defendants do not have
a legal right to foreclose, and seeks no affirmative
relief (except denial of Defendant’s counterclaim for
judicial foreclosure) [Dkt. 9; 15].7 Gutowsky, 2014 WL
6 The applicable statute of limitations for unjust enrichment is
two years. Elledge v. Friberg-Cooper Water Supply Corp., 240
S.W.3d 869, 869 (Tex. 2007); Tex. Civ. Prac. & Rem. Code § 16.003.
Moreover, the Texas residual statute of limitations period is
four years, and the statute of limitations for technical defects in
a real property instrument is two years. Tex. Civ. Prac. & Rem.
Code §§ 16.033, 16.051.
7 Plaintiffs’ other possible claim that is actually a “defense” has

App.45a

2696630, at *5 (stating statute of limitations does not
apply to defenses, which by their nature seek no affir­
mative relief). Conversely, Plaintiffs’ unjust enrichment/
restitution claim clearly seeks affirmative relief, namely
forfeiture of any payments made in error to Defend­
ant and removal of Defendant’s lien on the Property
[Dkt. 9 at 14-16, 18, 20]. It is therefore a claim, not a
defense, and subject to any applicable statute of limi­
tations. Gutowsky, 2014 WL 2696630, at *5.
To that end, Plaintiffs asserted their claims in the
State Court Action on July 31, 2015, which date falls
four years, five months, and twenty four days after
January 7, 2011 [Dkt. 9]. Collin County 736Proceeding.
January 7, 2011 is the latest date associated with any
allegations of wrongdoing by Defendant. Id. Because
this date falls well in excess of four years ago, Plaintiffs’
claim for unjust enrichment/restitution would normally
be time barred [Dkts. 1; 8; 9]. Tex. Civ. Prac. & Rem.
Code § 16.003. Here, Plaintiffs unjust enrichment/
restitution claim alleges vaguely that “Defendants have
been unjustly enriched by collecting monthly payments
from Plaintiff when it had no interest in their note,” but
references no date of the alleged improper payments
[Dkt. 9 at 16]. Plaintiffs have not alleged that Defend­
ant accepted payments from Plaintiffs within the two
year statute of limitations period. Tex. Civ. Prac. &
Rem. Code §§ 16.035, 16.051. Thus, Plaintiffs’ claim
for unjust enrichment/restitution must be dismissed
because it is time-barred.

been withdrawn, and Plaintiffs lack standing to assert the
defense/claim [Dkt. 15 at 8-9],

App.46a

iii. Rule 736 Proceeding Claims are Moot
Defendant argues that Plaintiffs’ claim alleging
procedural deficiencies in the Rule 736 Proceeding is
moot because the Foreclosure Order was vacated and
also because Defendant has now dismissed the pro­
ceeding [Dkt. 11 at 6-7]. Prior to dismissal of the Rule
736 Proceeding, Plaintiffs argued a live claim or con­
troversy continued to exist because the Texas state
court merely stayed the proceeding pending conclu­
sion of the present lawsuit [Dkt. 15 at 11-12]. A case
becomes moot if it “no longer present [s] a case or con­
troversy under Article III, § 2 of the Constitution.”
Spencer v. Kemna, 523 U.S. 1, 7 (1998). Under the
case or controversy requirement, “[t]he parties must
continue to have a ‘personal stake in the outcome’ of
the lawsuit.” Id. (citing Lewis v. Continental Bank
Corp., 494 U.S. 472, 477-78 (1990)). “This means
that, throughout the litigation, the plaintiff ‘must have
suffered, or be threatened with, an actual injury trace­
able to the defendant and likely to be redressed by a
favorable judicial decision.’” Id. Nonetheless, the Court
may rule on an otherwise moot case if the conduct
originally complained of is “capable of repetition, yet
evading review.” Daniel R.R. v. State Board of Edu­
cation, 874 F.2d 1036, 1040 (5th Cir. 1989)' (citing
Honig v. Doe, 484 U.S. 305, 319)).
The Court notes, at the outset, that the Rule 736
Proceeding has been non-suited by Defendants and
dismissed [Dkt. 20, Ex. l]. Collin County 736 Pro­
ceeding. Any possibility that the lack of hearing issue
or Foreclosure Order would be revived as a possible
injury to Plaintiffs upon lifting of the stay in the Rule
736 Proceeding was foreclosed when the case was
dismissed on June 2, 2016. Id:, see Daniel R.R. v. State

App.47a

Board of Education, 874 F.2d 1036, 1040 (5th Cir.
1989) (stating injury must remain capable of repetition
to survive a mootness challenge). In order for the
Defendant to foreclose on the Property, it will be re­
quired to either (l) file a new rule 736 proceeding,
including notice, an opportunity for the Plaintiffs to
answer, and a hearing, all as provided by the Texas
Rules of Civil Procedure; or (2) prevail on its
counterclaims for judicial foreclosure in the present
action [Dkts. 6; 20]. Tex. R. Civ. P. 736.01-736.11; see
Medcalf v. Ocwen Loan Servicing LLC, No. A-14-CA096-SS, 2014 WL 2722325 (W.D. Tex. June 16, 2014)
(finding that claims brought based on rule 736 pro­
ceeding for foreclosure were moot because Rule 736.11
requires the state court to vacate the order of fore­
closure when a lawsuit challenging the foreclosure is
filed, and noting many claims will likely be resolved
in the present action). Again, there is no possibility
that the previous Foreclosure Order in the Rule 736
proceeding could be reinvigorated at this junction
without a hearing. The Plaintiffs’ claims related to
the prior Rule 736 Proceeding are therefore moot and
must be dismissed.
iv. Quiet Title
Plaintiffs’ Amended Complaint states that “Plain­
tiffs seek a judicial declaration quieting title in Plain­
tiffs’ name and for a determination of their title against
adverse claims of Defendant [Dkt. 9 at 18].” Under
Texas law, the elements of a cause of action to quiet
title are: (l) an interest in a specific property; (2) title
to the property is affected by a claim by the defend­
ant; and (3) the claim, although facially valid, is invalid
or unenforceable. Cruz v. CitiMortgage, Inc., No. 3:11—
CV-2871-L, 2012 WL 1836095, at *4 (N.D. Tex. May

App.48a
21, 2012) {citing Sadler v. Duvall, 815 S.W.2d 285, 293
n. 2 (Tex.App.-Texarkana 1991, writ denied)). Texas
courts have made clear that “a necessary prerequisite
to the . . . recovery of title ... is tender of whatever
amount is owed on the note.” Fillion v. David Silvers
Company, 709 S.W.2d 240, 246 (Tex.App.-Houston
[14th Dist.] 1986, writ refd n.r.e.). Furthermore, the
plaintiff has the burden of establishing his or her
“superior equity and right to relief,” relying on the
strength of plaintiffs own title, not the inferiority of
the defendant’s title. Hahn v. Love, 321 S.W.3d 517,
531 (Tex.App.-Houston [1st Dist.] 2009, pet. denied).
Here, Plaintiffs’ Amended Complaint does not
reference the type of interest Plaintiffs’ have in the
property, nor how that interest is superior to that of
Defendant [Dkt. 9]. Cruz, 2012 WL 1836095, at *4.
Further, all of Plaintiffs’ claims with respect to quiet
title rely on the invalidity of the chain of Assign­
ments, which Plaintiffs have no standing to assert.
See infra § I. Moreover, even assuming that Plain­
tiffs’ did have standing, Plaintiffs have not alleged,
nor provided any evidence, that they have tendered
the amount due on the Note, which is a prerequisite
to recovering title through a quiet title action [Dkts.
1; 9; 15]. Fillion, 709 S.W.2d at 246. Plaintiffs’ claim
to quiet title to the property therefore fails to state a
claim on which relief can be granted under Federal
Rule of Civil Procedure 12(b)(6) and must be dismissed.
v. Unjust Enrichment/Restitution
Notwithstanding that Plaintiffs unjust enrich­
ment claim is time barred, the Court also considers
whether such claim must be dismissed for failure to

App.49a
state a claim. 8 “A party may recover under the unjust
enrichment theory when one person has obtained a
benefit from another by fraud, duress, or the taking
of an undue advantage.” Heldenfels Bros., Inc. v. City
of Corpus Christi, 832 S.W.2d 39, 41 (Tex. 1992). A
plaintiff cannot assert a theory of unjust enrichment
where the parties have a contract. Dempsey v. U.S.
Bank Nat, 2012 WL 2036434, *6 (E.D. Tex. 2012)
(stating presence of express or implied in-fact con­
tract bars recovery under unjust enrichment); Mason
v. Bank ofAm., No. 4:12CV650, 2014 WL 897781, at *6
(E.D. Tex. Mar. 4, 2014) (dismissing foreclosure case
claims for unjust enrichment); Zapatero v. Ocwen Loan
Servicing, LLC., No. 4:14CV372, 2015 WL 4380874, at
*6 (E.D. Tex. July 15, 2015) (similarly finding Plain­
tiffs claims for unjust enrichment without merit in a
foreclosure action).
Here, the parties’ relationship arises from the Deed
of Trust (a contract), as assigned to Defendant by the
Assignments [Dkt. 15, Exs. A-D]. Plaintiffs’ claims
for unjust enrichment/restitution rely factually on the
authority or lackthereof of Defendant to foreclose
under the Deed of Trust and Assignments, claims
again which Plaintiffs have no standing to assert
[Dkt. 9]. See infra § I. Moreover, Plaintiffs have failed
to allege with particularity, let alone demonstrate,
any fraud, duress, or the taking of an undue advantage
by Defendant or any benefit to Defendant therefrom.
Heldenfels Bros., 832 S.W.2d at 41. Plaintiffs’ claim
for unjust enrichment/restitution therefore must be
8 Defendant’s Motion to Dismiss specifically requests that the
Court dismiss all of Plaintiffs’ claims under Rule 12(b)(6) which
necessarily includes Plaintiffs’ claims for unjust enrichment/
restitution [Dkt. ll]

App.50a
dismissed for failure to state a claim. Mason, 2014
WL 897781, at *6 (dismissing foreclosure case claims
for unjust enrichment for failure to state a claim);
Zapatero, 2015 WL 4380874, at *6 (same).9
9 To the extent that Plaintiffs’ use of the terms “fraudulent,”
“false,” and “fabricated” attempt to allege fraud, the Court finds
that Plaintiffs have failed to meet the heightened Fed. R. Civ.
P. 9(b) standard for pleading fraud [Dkt. 9]. Rule 9(b) contains a
heightened pleading standard and requires a plaintiff to plead
the circumstances constituting fraud with particularity. See
Fed. R. Civ. P. 9(b); City of Clinton, Ark. v. Pilgrim’s Pride Corp.,
632 F.3d 148, 153 (5th Cir. 2010). “[Ajrticulating the elements
of fraud with particularity requires a plaintiff to specify the
statements contended to be fraudulent, identify the speaker,
state when and where the statements were made, and explain
why the statements were fraudulent.” Williams v. WMX Techs.,
112 F.3d 175, 177 (5th Cir. 1997). ‘Tut simply, Rule 9(b) requires
‘the who, what, when, where, and how’ to be laid out” with
respect to a fraud claim. Benchmark Electronics, Inc. v. J.M.
Huber Corp., 343 F.3d 719, 724 (5th Cir. 2003). Here, Plaintiffs’
Amended Complaint makes conclusory allegations of “fraudu­
lent” acts by Defendant, but does not identify a date, time, loca­
tion, or speaker, and Plaintiffs do not allege that they relied
upon the statements [Dkt. 9], Williams, 112 F.3d at 177. Addi­
tionally, Plaintiffs’ fraud arguments (if any) necessarily rely on
one or more of the Assignments being invalid, which, as noted
by this Court, Plaintiffs do not have standing to assert. See infra
§ I. Plaintiffs’ therefore have not met the heightened pleading
standard of Rule 9(b) and Plaintiffs’ fraud claims, if any, must
be dismissed. See e.g. Gipson v. Deutsche Bank Nat. Trust Co.,
No. 3:13-CV-4820-L, 2015 WL 2069583, at *13-14 (N.D. Tex. May
4, 2015)(dismissing plaintiffs fraud claims for failure to state a
claim and failure to meet the heightened pleading requirements
of Rule 9(b)). Plaintiffs’ claims for fraud would also be barred by
the four year statute of limitations because the allegedly fraud­
ulent actions took place no later than January 7, 2011. Tex. Civ.
Prac. & Rem. Code § 16.004(a)(4); Carroll v. Jaques, 927 F. Supp.
216, 223 (E.D. Tex. 1996) (citing McMeens v. Pease, 878 S.W.2d
185, 188 (Tex. App.-Corpus Christi 1994, writ denied)).

App.51a

Conclusion and Recommendation
Based on the foregoing, the Court recommends
that Defendant’s Motion to Dismiss [Dkt. 11] be
GRANTED, and each of Plaintiffs’ claims against
Defendant be dismissed with prejudice.
Within fourteen (14) days after service of the
magistrate judge’s report, any party must serve and
file specific written objections to the findings and re­
commendations of the magistrate judge. 28 U.S.C.
§ 636(b)(1)(C). In order to be specific, an objection must
identify the specific finding or recommendation to
which objection is made, state the basis for the
objection, and specify the place in the magistrate judge’s
report and recommendation where the disputed de­
termination is found. An objection that merely incor­
porates by reference or refers to the briefing before
the magistrate judge is not specific.
Failure to file specific, written objections will
bar the party from appealing the unobjected-to factual
findings and legal conclusions of the magistrate
judge that are accepted by the district court, except
upon grounds of plain error, provided that the party
has been served with notice that such consequences
will result from a failure to object. See Douglass v.
United Services Automobile Ass’n, 79 F.3d 1415, 1417
(5th Cir. 1996) (en banc), superseded by statute on other
grounds, 28 U.S.C. § 636(b)(1) (extending the time to file
objections from ten to fourteen days).
SIGNED this 15th day of June, 2016.

Is/ Christine A. Nowak
United States District Judge

Supreme Court
PRESS

